No. 19-

M3

In The

Supreme Court of The United States

Glen Plourde,
Petitioner
v.

Norman Plourde
Respondent

On Petition For Writ Of Certiorari
To The Maine Supreme Court

PETITION FOR A WRIT OF CERTIORARI

Glen Plourde
Pro Se
7 Hussey Road Apt #3
Albion, Maine, 04910
207-659-2595

RECEIVED
SEP -3 2019

QUESTIONS PRESENTED
The case under review may superficially
appear to be a simple protection from abuse case,
although the Petitioner assures The Honorable
United States Supreme Court that the Facts and
Law pertinent to and directly associated with this
case are far from simple, and involve deep matters of
Constitutional Law as well as International Law that
the Petitioner’s own State’s highest Court has
refused to answer to due to “Want of Jurisdiction”
and that therefore respectfully requires This
Honorable Court’s attention.
On or about the night of June 24 2004,
Petitioner unwillingly crossed back and forth
between Canada and the United States via the Peace
Bridge in Buffalo, New York approximately six times
in approximately six hours, for reasons he
understands to be classified Top Secret. Upon his
last entry into the United States, petitioner was
asked to pull into the United States Customs and
Border Protection facility, which he did. Fearing for
his life, Petitioner at that time immediately
attempted to immigrate into Canada.
From the years 2004 — 2013, all of the
Petitioner’s Employment has been for United States
Government Contractors working on United States
Department of Defense Projects.
During Petitioner’s 2012-2013 Employment
at Hamilton Sundstrand in Windsor Locks,
Connecticut, technically working for CDI Aerospace,
petitioner was verifiably Tortured as defined by
Black’s Legal Dictionary, The United States
Constitution, Federal Statute and The Geneva
Conventions against Torture.

During December of 2013, petitioner returned
to his parents’ home in Newburgh, Maine; having
survived Torture and multiple assassination
attempts while working at United Technologies
Hamilton Sundstrand, although not without
suffering persisting Critical Injury(s) sustained by a
Weapon(s) he understands to be classified Secret (in
his particular experience, Top Secret).
Upon returning home, Petitioner’s parents
made inferences and overtures that they knew what
he had been subjected to, well above and beyond
what Petitioner had disclosed to them, and
sympathized with Petitioner, but only to a limited
extent. Petitioner understands his sister and niece
to have been the Victims of a Viral Attack
perpetrated by CIA employees in approximately 2012
who were friends of the Plourde family and
understands (perhaps incorrectly) that a settlement
has been reached in that affair. Petitioner therefore
has a reasonable assumption that his parents
“limited sympathy” for Petitioner’s plight stems from
rightful fear for their Family as a whole.
Petitioner’s Family, father in particular, have
always had, and continue to have, acquaintances in
the CIA and FBI. Thus Petitioner has a reasonable
assumption that information Petitioner’s parents
have that has not been supplied by Petitioner himself
has come from these sources.1
Petitioner knows himself to be positively
under round-the-clock surveillance by the FBI or
agents acting on their behalf ever since being
Tortured in 2012 — 2013; probably since the 2004
1 The extent and nature of these acquaintances is substantial
and has therefore been excluded from the Introduction
pursuant to Rule 14.1(a), but will be expounded upon later.
ii

“Peace Bridge Incident”. Petitioner has confronted
the FBI with this knowledge in-person at their
Boston (Chelsea), Massachusetts Regional Field
Office on October 11 2017 and July 09 2019 and The
Special Agents the Petitioner spoke with never
denied that Fact; in-fact they tacitly confirmed it.
Petitioner is rightfully fearful for his life due
to the fact that he has been Tortured and Critically
Injured during his last employment as well as
targeted for assassination multiple times, and has
alerted his State Senators, Congressmen, Governor,
Attorney General, the Maine Human Rights
Commission, the ACLU, the FBI, the CIA, the NSA,
The Office of the Director of National Intelligence,
among others, of these Facts and all agencies have
refused to help him.
Petitioner lived a reasonably peaceful life with
his parents between the years of 2014 — 2016
although Petitioner understands his parents were
under pressure by their “Government acquaintances”
to have petitioner move out as they wanted
petitioner back in the Government workforce.
Petitioner understands that he accrued
approximately 2 and a half years of living at his
parents’ home and therefore has some legal grounds
for making that his permanent address and therefore
could not be simply “kicked out” by his parents.
On June 06 2016, after a verbal confrontation
between Petitioner and Father regarding future
employment, Petitioner’s father apparently called
‘911’. A Penobscot County Sheriffs Tactical Unit
responded and Petitioner was taken into custody and
charged with “Domestic Violence, Misdemeanor
Class C". Case was docketed as PENDC-CR-1620309.
iii

On November 03 2016, Petitioner agreed to a
2-year Protection from Abuse Order that allowed no
contact whatsoever with his father on the fraudulent
advice of attorney Philip Molar of Skowhegan,
Maine. That Case was docketed as PENDC-PA-1600103.
On October 25 2018, Petitioner’s father sought
extension to that Order, same docket number.
Petitioner contested the extension. Presiding Judge
(Budd, Charles) ruled in favor of Petitioner’s father
and Petitioner appealed to The Maine State Supreme
Court. That appeal was docketed as PEN-18-458.
On June 6 2019 The Maine Supreme Court
affirmed the lower court’s decision. Petitioner filed a
Motion for Reconsideration that was denied.
Petitioner filed a Motion for Findings of Fact
and Conclusions of Law for issues raised within his
Brief that The Court failed to answer, citing “Want of
Jurisdiction”. Petitioner filed a follow-up Motion
asking for further explanation of this cryptic answer,
to which “Want of Jurisdiction” was again cited.
Thus the Petitioner requests Certiorari be
granted to address the following substantial
questions:
1. Whether the District Court, The Maine
Supreme Court, The Maine State Government,
or The Federal Government are in violation of
The United States Constitution, The Maine
State Constitution, The Geneva Convention
against Torture and Other Cruel, Inhuman, or
Degrading Treatment or Punishment, and
Maine State and Federal Law as a result of
having confirmed knowledge that the
Petitioner was Tortured by The Federal
iv

Government and subsequently failing to act on
it as Constitutional and International Law
demand they must.
2. Whether Petitioner’s Father’s Religious Rights
under the United States Constitution and
Maine State Constitution have been violated
as a result of his interactions with the FBI and
CIA while at his Church of over 40 years’ and
associated Church activities.
3. Whether the Maine State Government has
colluded with the Federal Government in
order to “cover up” the FBI’s Torture and
Harassment of the Petitioner while he has
resided in Maine and that continues to this
day and have therefore violated numerous
articles of The United States Constitution,
Maine State Constitution, The Geneva
Convention against Torture and Other Cruel,
Inhuman, or Degrading Treatment or
Punishment; as well as Federal and State Law
in doing so.
4. Whether the Maine State or Federal
Government has violated the Petitioner’s
United States Constitutional Rights, Maine
State Constitutional Rights, International
Humanitarian Rights; as well as Federal and
State Law in Exploiting him, Disenfranchising
him, or otherwise manipulating him for their
own benefit, gain, or amusement.

/v

5. Whether The Federal Government or Maine
State Government has coercively manipulated
the Petitioner or his Family using fear or other
nefarious methods.
6. Whether the Maine Supreme Court has acted
with Impropriety or with intent to harass or
intimidate the Petitioner by inclusion of the
citation of State v. Philbrick in its
Memorandum of Decision, which is a
repugnant case and is completely unrelated to
the Court’s stated reason for its inclusion in
their Memorandum of Decision, and has
therefore violated The United States
Constitution and State of Maine Judicial
Cannons in doing so.
7. Whether The Maine Supreme Court acted
with impropriety in not properly recusing
Justice Joseph Jabar from the panel ruling on
Petitioner’s Appeal, and has thus violated the
State of Maine Judicial Cannons in doing so.

vi

PARTIES TO THE PROCEEDING
The Petitioner respectfully requests the
judgement of the following parties be reviewed.
Norman Plourde
455 Chapman Road
Newburgh, Maine 04444
The Maine State Supreme Court
c/o Chief Justice Saufley
205 Newbury Street
Portland, Maine 04101
The State of Maine
Maine State Attorney General’s Office
c/o Maine Attorney General Aaron M. Frey
6 State House Station
Augusta, Maine 04333
The Federal Bureau of Investigation
Office of The General Counsel
J. Edgar Hoover Building
935 Pennsylvania Avenue NW
Washington, D.C. 20535
The Central Intelligence Agency
c/o Office of Inspector General
Office of Public Affairs
Washington, D.C. 20505
The Department of Justice
c/o Inspector General Michael E. Horowitz
950 Pennsylvania Avenue NW
Washington, D.C. 20530
vii

. <

RELATED PROCEEDINGS
Maine Supreme Court
PEN-18-458
N.G.P. v. G.D.P.
June 06, 2019
Newport Maine District Court
NEWDC-PA-16-00103
Norman Plourde v. Glen Plourde
November 03, 2016
October 25, 2018
Newport Maine District Court
NEWDC-CR-16-20309
State of Maine v. Glen Plourde
April 26, 2017

)

ix

TABLE OF CONTENTS
QUESTIONS PRESENTED
PARTIES TO THE PROCEEDING
RELATED PROCEEDINGS
TABLE OF CONTENTS

1

Vll

IX

x

TABLE OF AUTHORITIES
CITATION TO OPINIONS BELOW
JURISDICTION

xm

1
:1

CONSTITUTIONAL PROVISIONS INVOLVED..... 1
STATEMENT OF THE CASE

3

I.

History of the Petitioner’s Relationship
with the Government; Torture, Abuse,
Persistent Interference and Control..... 3

II.

Constitutional Religious Rights Abuses
Perpetrated by the Government......... 12

III.

Maine Supreme Court’s Failure to
Respond to all Constitutional Questions
in Case on Appeal
16

x

REASONS FOR GRANTING THE WRIT

22

I.

There are Numerous, Readily Verifiable
International Law Violations and
Constitutional Rights Abuses
24

II.

The Situation is Untenable and
Uncontainable and Patently Wrong....27

CONCLUSION

36

AP. ORDER ON MOTION TO STAY MANDATE...37
AP. ORDER ON MOTION TO RECONSIDER....... 37
AP. ORDER ON MOTION, FACTS AND LAW.......37
AP. ORDER ON MOTION TO CLARIFY

38

AP. ORDER ON MOTION RE: JUSTICE JABAR...38
AP. MEMORANDUM OF DECISION

39

AP. GENEVA CONVENT. AGAINST TORTURE...41
AP. 18 U.S.C. § 2340

50

AP. U.S. CONSTITUTIONAL PROVISIONS

51

AP. MAINE STATE CONST. PROVISIONS

54

AP. MAINE CODE OF JUDICIAL CONDUCT...... 57
AP. M.R. Civ. P. Rule 76G(c)

xi

61

AP. PEN-18-458, TABLE OF AUTHORITIES

62

AP. PEN-18-458 ARGUMENT VII

63

AP. PEN-18-458 11/01/16 DISCLOSURES

70

AP. PEN-18-458 08/02/17 DISCLOSURES

83

AP. PEN-18-458 MTN TO RECON ARG. #6

138

AP. PEN-18-458 MTN FIND FACTS AND LAW 140
AP. PEN-18-458 MTN FOR CLARIFICATION.... 144
AP. PEN-18-458 MTN RE: JUSTICE JABAR....... 146
AP. STATE v. PHILBRICK, 669 A.2d 152, 156.... 148
AP. AFFIDAVIT RE: LOCATING COUNSEL...... 158
AP. AFFIDAVIT 2 RE: LOCATING COUNSEL....171
AP. MOTION FOR ATTORNEY FROM DOJ....... 185
AP. NEWDC-PA-16-103 10/25/18 ORDER

195

AP. NEWDC-PA-18-103 11/03/16 ORDER

201

AP. PENDC-CR-16-20309 04/26/17 ORDER

207

AP. PETITIONERS RESUME

209

xii

TABLE OF AUTHORITIES
INTERNATIONAL LAW
Geneva Convention against Torture and Other
Cruel, Inhuman, or Degrading Treatment or
Punishment
9, 10, 17, 22, 25
U.S. CONSTITUTIONAL PROVISIONS
U.S.
U.S.
U.S.
U.S.
U.S.
U.S.

Const. Amend. I.....
Const. Amend. IV...
Const. Amend. V....
Const. Amend. VIII
Const. Amend. XIII
Const. Amend. XIV....8, 10,

.................. 12, 13, 18
.................... 8, 18, 20
..............8, 10, 12, 13
10, 12, 13, 17, 18, 19
10, 12, 13, 18, 19, 20
12, 13, 15, 18, 19, 20

STATE CONSTITUTIONAL PROVISIONS
Maine Const. Art.
Maine Const. Art.
Maine Const. Art.
Maine Const. Art.
Maine Const. Art.
Maine Const. Art.
Maine Const. Art.

1
1
1
1
1
1
5

Sect.
Sect.
Sect.
Sect.
Sect.
Sect.
Sect.

1....10,
3
5
6A 10,
9..
19
12

12, 13, 15, 18, 19, 20
13
19
12, 13, 15, 18, 19, 20
10, 12, 13, 17, 18, 19
..................10, 15, 18
.passim

CODES, STATUTES, RULES
18U.S.C. 2340......................................
Maine Rule of Civil Procedure 76G(c)
Maine Rule of Judicial Conduct 1.1....
Maine Rule of Judicial Conduct 1.2....
Maine Rule of Judicial Conduct 1.3....
Maine Rule of Judicial Conduct 2.2....
xiii

.passim
21
17, 21
17, 21
17, 21
17

Maine
Maine
Maine
Maine
Maine

Rule of Judicial
Rule of Judicial
Rule of Judicial
Rule of Judicial
Rule of Judicial

Conduct
Conduct
Conduct
Conduct
Conduct

2.3.....
2.4.....
2.8(B)
2.9.....
2.11...

17
21
17
21
21

CASES
State v. Philbrick, 669 A.2d 152, 156 (Me. 1995) 16 17

xiv

CITATION TO OPINIONS BELOW
The opinion of the Maine Supreme Court is
considered unpublished by that Court although it is
publicly linked and reported at
https://www. courts. maine. gov/opinions_orders/supre
me/memdec.shtml (Page 39). The opinions of the
Newport District Court are unpublished, but
included in the Appendix (Pages 195, 201, 207).
STATEMENT OF JURISDICTION
The Maine Supreme Court entered judgment
on June 6, 2019. See App. 1. Petitioner request a
writ of certiorari pursuant to 28 U.S.C. § 1257(a).
CONSTITUTIONAL AND INTERNATIONAL
PROVISIONS INVOLVED1
The Geneva Convention against Torture and
Other Cruel, Inhuman or Degrading Treatment or
Punishment; Articles One through Sixteen.
18 U.S.C. 2340 - Definitions; Torture.
The First, Fourth, Fifth, Eighth, Thirteenth
and Fourteenth Amendment to The United States
Constitution.
Article One, Sections One, Three, Five, Six-A
(6A), Nine, Nineteen, and Article 5 Section 12 of The
Maine State Constitution.
1 These Provisions are lengthy and have therefore been
included in The Appendix pursuant to Rule 14.1(f). Pages 41 61.
1

STATEMENT OF THE CASE
The Petitioner has a long history with the
United States Government prior to this case that
continues to this day, and that history has shown the
United States Government to be extremely hostile
towards the Petitioner, which shall be expounded
upon below.
Petitioner believes that this verifiably hostile
history has directly influenced both the Federal and
Maine State Governments’ refusal to investigate and
provide relief for the verifiable Torture and Critical
Injury(s) he has experienced at the hands of the
Federal Government, as well as to have influenced
the Petitioner’s Father into seeking not only a 2-year
Protection from Abuse Order against him but an
extension to that Order as well.
During approximately 2003 - 2004, Petitioner
was a staunch conservative and politically active,
often posting pro-conservative views and political
opinions on liberal blogs such as “Talkleft”, “Daily
Kos”, and “Pharyngula”, among others. As the
petitioner’s conservative political views did not align
with the liberal views espoused by those blogs or
their regular commentators, such postings and
conversations often became argumentative, although
petitioner believes that such arguments were mature
in nature and Petitioner harbored no ill-will against
any of his numerous, regular detractors.
On or about the night of July 24 2004, just two
days prior to the Democratic National Convention,
Petitioner unwillingly crossed back and forth
between Canada and the United States via the Peace
Bridge in Buffalo, New York approximately six times
in approximately six hours, for reasons he
3

understands to be classified Top Secret.2 Upon his
last entry into the United States, petitioner was told
by US Customs and Border Protection to pull over
into their facility for inspection, which he did.
Fearing for his life, petitioner immediately
requested Political Asylum into Canada. At that
point all US Customs and Border Patrol Personnel
left the room and left Petitioner unattended. An
extended period of time elapsed (Petitioner recalls
this time to exceed an hour) and Petitioner panicked
and left US Customs and Border Patrol in the same
vehicle he arrived in. Petitioner was not confronted
by any member of US Customs and Border Patrol as
he exited their facility or at any time afterwards.
Shortly thereafter, Petitioner was driven off
the road of a residential street in Buffalo, New York
while traveling at a high rate of speed (65+ mph).
Petitioner’s 2002 Saab 93’s airbag failed to deploy
although Petitioner suffered no injury as a result of
the wreck. Immediately upon exiting the wreck,
Petitioner was confronted by a large, aggressive male
who made hostile advances towards Petitioner.
Said person ceased hostilities and hastily left
the scene when one of the residents of the street
Petitioner’s vehicle had crashed on immediately
walked onto her porch and yelled to petitioner and
asked if he would like her to call ‘911’, to which
Petitioner responded in the affirmative.
Petitioner was lucid and alert, given no
sobriety test, although was nonetheless placed in
handcuffs by responding Law Enforcement who
drove Petitioner in a law enforcement vehicle to an

2 Petitioner therefore asserts that his Torture by the United
States Government began in approximately late July 2004.
4

unknown “Medical Facility” in or around Buffalo,
New York. After observing petitioner for
approximately an hour Petitioner was placed on a
gurney and in physical restraints and was taken by
ambulance to an unknown facility.
Upon arrival at that facility petitioner was
given an injection of a red liquid he could not
identify. Petitioner asked the “nurse” administering
the injection what it was and she responded, “You
know what this is”. Petitioner was rendered
immediately unconscious due to unknown injection.
Petitioner awoke over three days’ later in the
Psychiatric Observation Unit of a Hospital in
Buffalo, New York. During that time petitioner met
with multiple panels of “Doctors”, some in excess of
twenty people (the room was crowded and literally
standing-room only at times), during which
Petitioner answered numerous questions, some of
them highly suspicious. Petitioner was eventually
released after approximately five days into the
custody of his parents. No Psychiatric Diagnosis was
provided, although petitioner was given a
prescription for the Neuroleptic Risperdal
(Risperidone).
Over approximately the next two years
petitioner was placed on a “neuroleptic medication
merry-go-round” by his assigned psychiatrists as
they insisted to attempt to treat symptoms petitioner
insisted simply did not exist. Petitioner found none
of these neuroleptics to be efficacious in any way
whatsoever and found them to only induce
unnecessary and highly-detrimental side effects.
After approximately two years petitioner
discontinued use of any and all neuroleptics on his
own and at his own discretion and found that his
5

t

mood, affect, mental acuity, memory, and overall
physical health and well-being increased sharply as a
result. Petitioner felt normal again, a feeling he had
not felt in over two years, and had/has no symptoms
of any psychological disorder requiring neuroleptic
treatment.
Petitioner sought a new Psychiatrist and
found one, who agreed with Petitioner’s statements
in above paragraph although did diagnose Petitioner
with Post Traumatic Stress Disorder. Petitioner was
therefore asked to try the anti-anxiety medication
Clonazepam and the mood-stabilizing drug Lamictal
(Lamotrigine). After approximately two years
Petitioner discontinued use of Lamotrigine on his
own and with his psychiatrist’s approval as it had no
efficacious effects whatsoever, only detrimental side
effects, and was therefore unnecessary; but continues
to use the anti-anxiety medication Clonazepam to
this day as it is extremely efficacious in treating the
acute anxiety and panic attacks the Petitioner now
suffers from.
Petitioner’s interaction with above psychiatrist
eventually dwindled into “medication management”
in which Petitioner and psychiatrist met every six
months for one hour to discuss Petitioner’s life and
refill Petitioner’s Clonazepam prescription.
In late 2007, as petitioner was transitioning
off neuroleptics as described above, Petitioner was
given a choice by his employer, United Technologies’
Pratt & Whitney of East Hartford, Connecticut, to
either quit his job as a Software Engineer working on
the Joint Strike Fighter Jet Engine Program (FI35)
or be forced out of the workforce procedurally.
Petitioner therefore quit and was immediately hired
by another Department of Defense Contractor, ITT
6

Technologies of West Springfield, Connecticut (no
longer under that name).
From the years 2004 — 2013, all of the
Petitioner’s Employment has been for United States
Government Contractors working on United States
Department of Defense projects.
Over the next 6 or 7 years, Petitioner’s
employment history was meager at best, despite the
fact that Petitioner holds a Masters’ Degree in
Electrical Engineering from the prestigious
Rensselaer Polytechnic Institute of Troy, New York,
all the corporations petitioner had ever worked for
were United States Department of Defense related,
and all projects petitioner worked on were programs
funded by the United States Department of Defense,
as evidenced by his Resume (Page 209).
Petitioner’s gross income during those years
put him below the State of Connecticut Poverty Line
and forced him to live from unemployment check to
unemployment check from approximately 2006 —
2012.
Also apparent is that the Petitioner’s job
search was being orchestrated by The Federal
Government as he filed, literally, thousands of Job
Applications over those years using various websites,
mainly CareerBuilder.com, and yet the only
responses he ever received or job-placement
companies that were ever willing to work with him
were “RJS Associates” of Hartford Connecticut and
“Aerotek Engineering” of Meriden Connecticut.
As evidenced in Petitioner’s Resume, one
particular job, at MTU AENA lasted for exactly 2
days’ due to terminal interference from United
Technologies’ Pratt & Whitney, a “partnered
company”, and although all of Petitioner’s
7

unemployment benefits were verifiably exhausted at
that point (even the numerous extensions allowed for
under the 2008 Obama Administration) the State of
Connecticut continued to send him unemployment
checks despite that fact, no questions asked, in
obvious violation of State and Federal Law.3
Throughout those meager years of 2006 2012, petitioner’s Parent’s made inferences and
overtures that there was heavy United States
Government involvement in his life. One such
inference was when his Mother gave Petitioner’s
college laptop computer, the only computer he had
had during college (thus forever depriving Petitioner
of all his college contacts, schoolwork, and email), to
a “poor friend of hers who needed a computer”
without his permission in approximately 2005. This
“poor friend” was later identified by Petitioner’s
mother as “Cate Hayden”, a CIA employee she was
acquainted with from approximately 2004 - present.4
3 Petitioner’s Argument #1, 4, 5. Petitioner asserts he has been
critically disenfranchised during the financially-formative and
relationship-oriented years of his life by The Federal
Government, in violation of both the Fifth and Fourteenth
Amendment of the Constitution of The United States, as
brought to the attention of the Maine Supreme Court in his
Appellant’s Brief KEN-18-458, Argument Seven, as well as the
Appendix to that Brief in “White Paper with Confidential
Disclosures, 11/01/16” and “White Paper with Confidential
Disclosures, 08/02/17”, as well as his “Motion to Reconsider,
Argument Six” and “Motions for Findings of Facts and
Conclusions of Law”, all of which The Maine Supreme Court
ignored in its Decision and its Response to Petitioner’s Motions.
All cited documents included in Appendix, Pages 51 — 146.
4 Petitioner’s Argument #1, 4, 5. Petitioner asserts his private
property has been improperly seized by The Federal
Government, in violation of the Fourth, Fifth, and Fourteenth
Amendments of the Constitution of The United States, as
8

Another such inference occurred after
Petitioner’s 2002 Sony Vaio Desktop Computer had
been positively hacked into and rendered
unrepairable, according to the Computer Technicians
Petitioner had taken it to for analysis. When
Petitioner informed his Father that he did not have
the money necessary to replace his personal
computer, Petitioner’s Father shouted into the phone
uncharacteristically, to no one in particular, “So now
I have to buy him a new computer too?”. Petitioner
was extremely alarmed by this statement as it
seemed to be directed at a third party and such loud
exclamations of frustration or discontent are highly
uncharacteristic of his Father.
There are numerous other examples Petitioner
could cite that support the fact that his parents knew
there was direct Federal Government involvement in
his life, although Petitioner will leave it at the two
cited above as he could fill an entire book with such
anecdotes.
During Petitioner’s 2012 — 2013 Employment
at Hamilton Sundstrand in Windsor Locks,
Connecticut, technically working for CDI Aerospace,
petitioner was positively and verifiably Tortured as
defined by Black’s Legal Dictionary, The United
States Constitution, Federal Statute, and The
Geneva Conventions against Torture. Petitioner also
brought to the attention of the Maine Supreme Court in his
Appellant’s Brief KEN-18-458, Argument Seven, as well as the
Appendix to that Brief in “White Paper with Confidential
Disclosures, 11/01/16 and ‘White Paper with Confidential
Disclosures, 08/02/17” as well as his “Motion to Reconsider,
Argument Six” and “Motion for Findings of Facts and
Conclusions of Law”, all of which The Maine Supreme Court
ignored in its Decision and its Response to Petitioner’s Motions.
All cited documents included in Appendix, Pages 51 — 146.
9

suffered Critical and Lasting, persisting to this day,
Injury(s) from a Weapon(s) he understands to be
classified Top Secret, and has suffered Cruel,
Inhuman, and Degrading Treatment while employed
there, also in violation of The United States
Constitution and The Geneva Conventions against
Torture.5
Petitioner is justifiably afraid to disclose the
exact nature of that Torture or the Critical Injury(s)
he has sustained as a result, as the means, methods,
and technology involved are all classified Secret,
mostly Top Secret, and Petitioner fears to disclose
such information in a Public Document. Petitioner
assures The Honorable United States Supreme Court
that the FBI and CIA will vouch for the Fact that
Petitioner has positively been tortured, should they
rightfully supply The Court with this information,
and Petitioner assures The Court that he would
disclose such means, methods, and technology to The
5 Petitioner’s Arguments 1, 3, 4. Petitioner asserts he has been
Tortured by The Federal Government, in violation of The
Geneva Convention against Torture Articles 1, 2, 4, 5, 6, 7, 10,
11, 12, 13, 14, and 16, as well as the fifth, eighth, thirteenth
and fourteenth amendment of the Constitution of The United
States, as well as Article 1 Section 1, Article 1 Section 6-A,
Article 1 Section 9, Article 1 Section 19 of The Maine State
Constitution; brought to the attention of the Maine State
Government on November 01 2016 and August 02 2017 and The
Maine Supreme Court in his Appellant’s Brief KEN-18-458,
Argument Seven, as well as the Appendix to that Brief in
“White Paper with Confidential Disclosures, 11/01/16” and
“White Paper with Confidential Disclosures, 08/02/17” as well
as his “Motion to Reconsider, Argument Six” and “Motions for
Findings of Facts and Conclusions of Law”, all of which The
Maine Supreme Court ignored in its Decision and its Response
to Petitioner’s Motions. All cited documents included in
Appendix, Pages 41 - 146.
10

Court should they request it in the event Certiorari
is granted. Additionally, The United Nations would
undoubtably find that the Petitioner has been
tortured should he disclose to them this information.
Furthermore, Petitioner is justifiably afraid to
disclose the nature of the Critical Injury(s) he has
suffered to a United States Medical Facility, as he is
aware such injury has been inflicted by The Federal
Government, is under round-the-clock surveillance
by the FBI, and therefore rightfully does not trust a
United States Medical Facility to give him an
impartial diagnosis(es) or accurate description(s) of
the extent of the injury(s) and damage he has
suffered.
During December of 2013, petitioner returned
to his parents’ home in Newburgh, Maine; having
survived Torture, Critical Injury, Death Threats, and
multiple Assassination Attempts while working at
United Technologies Hamilton Sundstrand.
Upon returning home, Petitioner’s parents let
him know that they knew much of what he had been
subjected to, well above and beyond what Petitioner
had disclosed to them, and sympathized with
Petitioner, but only to a limited extent. Petitioner
understands his sister and niece to have been the
victims of a Viral Attack perpetrated by CIA
employees in approximately 2012 and understands,
perhaps incorrectly as his source(s) are suspect, that
a settlement has been reached in that affair.
Petitioner therefore has a reasonable assumption
that his parents “limited sympathy” for Petitioner’s

11

plight stems from a Rightfully Justifiable Fear for
their Family as a whole.6
Petitioner’s mother has acquaintances from
approximately 2005 — present whom she identifies as
working for the CIA named Cate and Eric Hayden.
Petitioners mother is and has always otherwise been
a loner and has kept no other close company.
Petitioner’s father has acquaintances that
petitioner knows with certainty are CIA employees,
including Pastor Mark Fowler and his Family of The
Church of The Open Door in Hampden, Maine and
Pastor Ray Dupere and his Family of Rockville
Baptist Church in Rockville, Connecticut.
Petitioner’s father also has acquaintances at
the Church of The Open Door that he has disclosed to
petitioner as working for the FBI; including V. Paul
Reynolds, Scott Reynolds, Karen Reynolds, Dave
Ruiz, Larry Dearborne, and the Boucher family.
Petitioner’s father has attended The Church of The
Open Door regularly for over forty years, for the
6 Petitioner’s Argument 1, 3, 5. Petitioner asserts his Family
was coercively manipulated by The Federal and Maine State
Governments, a violation of their First, Fifth, Eighth,
Thirteenth, and Fourteenth Amendment Rights under the
Constitution of The United States; Article 1 Section 1, Article 1
Section 4, Article 1 Section 6-A, and Article 1 Section 9 of The
Maine State Constitution; brought to the attention of the Maine
State Government on November 01 2016 and August 02 2017
and The Maine Supreme Court in his Appellant’s Brief KEN18-458, Argument Seven, as well as the Appendix to that Brief
in “White Paper with Confidential Disclosures, 11/01/16” and
“White Paper with Confidential Disclosures, 08/02/17” as well
as his “Motion to Reconsider, Argument Six” and “Motion for
Findings of Facts and Conclusions of Law”, all of which The
Maine Supreme Court ignored in its Decision and its Response
to Petitioner’s Motions. All cited documents included in
Appendix, Pages 51 - 146.
12

purpose of Religious Practice and Fellowship with
like-minded persons in Good Faith. Petitioner’s
father’s acquaintances, named above, no longer
attend the Church of The Open Door and did so, to
the Petitioner’s understanding, sporadically and only
between the years of approximately 2011 - 2018, and
only for the purposes of speaking with the
Petitioner’s father. Furthermore, regular “small
group activities” were and are scheduled by that
Church in which members meet during the week for
Bible Study. Petitioner understands that his
Father’s “small group” consisted of the FBI members
cited above. Thus Petitioner contends that his
Father was and continues to attend The Church of
The Open Door in order to practice his religion and
keep fellowship with others of the same, while the
FBI participants cited above were there for the
ulterior motive of manipulating his father.7
7 Petitioner’s Argument #1, 2, 3, 5. Petitioner asserts his
Father’s Religious Rights have been violated by The Federal
Government, while at his place of worship and being subjected
to the coercion of the Federal Government, specifically in
violation of the First, Fifth Eighth, Thirteenth, and Fourteenth
Amendment Rights under the Constitution of The United
States; Article 1 Section 3, Article 1 Section 1, Article 1 Section
4, Article 1 Section 6-A, Article 1 Section 9 of The Maine State
Constitution; brought to the attention of the Maine State
Government on November 01 2016 and August 02 2017 and The
Maine Supreme Court in Petitioner’s Appellant’s Brief KEN-18458, Argument Seven, as well as the Appendix to that Brief in
“White Paper with Confidential Disclosures, 11/01/16” and
‘White Paper with Confidential Disclosures, 08/02/17” as well
as his “Motion to Reconsider, Argument Six” and “Motion(s) for
Findings of Facts and Conclusions of Law”, all of which The
Maine Supreme Court ignored in its Decision and its Response
to Petitioner’s Motions. All cited documents included in
Appendix, Pages 51 — 146.
13

Furthermore, Petitioner’s Father has alleged
in his affidavit for continuation for a Protection from
Abuse Order, that he has been attending
“counseling” and has been advised by his “counselor”
to seek such an order against petitioner. During
conversation with Petitioner’s Mother, she revealed
Petitioner’s Father had never seen nor was seeing
any such “counselor”. Thus petitioner believes
without a shadow of uncertainty that the “counselor”
in question was not a traditional counselor but was
instead an FBI acquaintance of Petitioner’s Father
whom he met regularly with through church
activities and was through such activities advised
(coerced) into renewing his restraining order against
the petitioner.
Thus petitioner again asserts again that his
Father’s Constitutional Rights to practice his
Religion freely have been infringed upon by the
Federal Government, who were taking advantage of
his regular attendance at church activities in order
to regularly converse with, (mis)inform him, and to
otherwise manipulate him into acting as they
desired; again out of fear for his Family.8
Petitioner lived a reasonably peaceful life with
his parents between the years of 2014 - 2016
although Petitioner understands his parents were
under pressure by their Government acquaintances
to have petitioner move out in order to force him
back into working for the Government.9
Petitioner understands that he has accrued
approximately 2 and a half years of living at his
parents’ home and therefore has some legal grounds

8 Same argument as footnote (7) above.
9 Same argument as footnote (6) above.
14

for contesting a simple request for him to leave and
therefore could not be simply “kicked out” by his
parents.
On June 06 2016, after a verbal confrontation
between Petitioner and Father regarding future
employment, Petitioner’s father apparently called
‘911’. A Penobscot County Sheriffs Tactical Unit
responded, a suspiciously forceful response to the
situation, and Petitioner was taken into custody and
charged with “Domestic Violence, Misdemeanor
Class C". Case was docketed as PENDC-CR-1620309.10
Petitioner had at that time problems finding a
lawyer to represent him, and continues to have
critical problems obtaining a lawyer for any of the
numerous charges brought against him in Maine
State Court, three of them being criminal, due to
interference from the FBI. Petitioner has made his
State Government as well as the FBI aware of these
circumstances, and they remain unchanged.11
10 Dismissed after Petitioner obtained November 30 2016 and
March 22 2017 Hearing Transcripts showing collusion between
Judge and Prosecution as well as Malfeasance involving same.
11 Petitioner’s Argument 1, 3, 4, 5. Petitioner asserts that he
was, and still is, being obstructed from obtaining an Attorney
unaffiliated with the FBI to represent him in any matter
whatsoever due to the nature and severity of the Crimes
already having been visited upon him, a violation of his Fifth
and Fourteenth Amendment Rights under the Constitution of
The United States; Article 1 Section 1, Article 1 Section 6-A,
Article 1 Section 19 of the Maine State Constitution; brought to
the attention of the Maine State Government on November 01
2016 and August 02 2017 and The Maine Supreme Court in his
Appellant’s Brief KEN-18-458, Argument Seven, as well as the
Appendix to that Brief in “White Paper with Confidential
Disclosures, 11/01/16” and “White Paper with Confidential
Disclosures, 08/02/17” as well as his “Motion to Reconsider,
15

On November 03 2016, Petitioner agreed to a
2-year Protection from Abuse Order that allowed no
contact whatsoever with his father on the fraudulent
advice of attorney Philip Molar of Skowhegan,
Maine. That Case was docketed as NEWDC-PA-1600103.12
On October 25 2018, Petitioner’s father sought
extension to his Protection from Abuse Order, docket
number NEWDC-PA-16-00103. Petitioner found his
father’s affidavit describing his reasons for seeking
extension to be Frivolous and thus filed a Motion to
Dissolve and Contested the extension. Presiding
Judge (.Budd, Charles) ruled in favor of Petitioner’s
father and Petitioner appealed to The Maine State
Supreme Court. That appeal was docketed as PEN18-458.
On June 6 2019, exactly three years after
petitioner had been arrested as described above, The
Maine Supreme Court affirmed the lower court’s
decision. Petitioner filed a Motion for
Reconsideration that was denied.
Within The Maine Supreme Court’s
Memorandum of Decision, it cited a case, State v.
Philbrick, that had nothing to do with the issues
Petitioner had raised in his Appellant’s Brief. State
v. Philbrick is a case in which sexual assault was
perpetrated against a minor in which the “pertinent
issues cited” were “the exact definition of various
Argument Six” and “Motion for Findings of Facts and
Conclusions of Law”, all of which The Maine Supreme Court
ignored in its Decision and its Response to Petitioner’s Motions.
All cited documents included in Appendix, Pages 51 - 146.
Additional supporting documentation included at Appendix,
Pages 158, 171, 185.
12 Same Argument as footnote (11) above.
16

acts of sexual abuse”. Petitioner rightfully and
justifiably believes the FBI or CIA had input into
this case being included within The Maine Supreme
Court’s Memorandum of Decision as they have
information which no one else has which may have or
have had tangential bearing on Petitioner’s life that
only the FBI or CIA could possibly have known
about, using Top Secret means and methods;
Torture, in this instance. Petitioner filed a Motion
for Findings of Fact and Conclusions of Law which
included a request for explanation of why this case
was included in the Memorandum of Decision and
The Maine Supreme Court replied with “Motion
Dismissed” due to “Want of Jurisdiction”.13
Petitioner filed the above cited Motion for
Findings of Fact and Conclusions of Law and
included additional issues raised within his Brief
that The Court had failed to answer, citing “Want of
Jurisdiction”. Petitioner filed a follow-up Motion
asking for further explanation of this cryptic answer,
to which ‘Want of Jurisdiction” was again cited.14
13 Petitioner’s Arguments 1, 3, 4, 5, 6. Petitioner asserts that
objectively, State u. Philbrick has no bearing whatsoever on the
case under appeal, although it is cited in the Maine Supreme
Court’s Decision for reasons that may have subjective meaning
to the Petitioner, and finds this to be a violation of his Eighth
Amendment Right under the Constitution of the United States,
as well Article 1 Section 9 of The State of Maine Constitution,
as well as a violation of the Maine Code of Judicial Conduct
Rule 1.1, 1.2, 1.3, 2.2, 2.3, 2.8(B); brought to the attention of the
Maine State Supreme Court in his “Motion for Findings of Facts
and Conclusions of Law”, all of which The Maine Supreme
Court ignored in its Decision and its Response to Petitioner’s
Motions. All cited documents included in Appendix, Pages 51 —
148.
14 Petitioner’s Arguments 1, 3, 4. Petitioner asserts there has
been collusion between the Maine State and Federal
17

Between the years of 2016 - present Petitioner
has necessarily changed residences approximately
six times as the Protection from Abuse Order(s) in
place precludes him from returning to his former
residence with his parents, and he is continually
harassed and assaulted by fellow tenants at his
apartments, his apartments and vehicle are
regularly broken into and the few possessions he
owns are either stolen, destroyed, or tampered with,
and all residences the Petitioner has ever attempted
to live peacefully at have resulted in his Landlords’
attempting to evict him and petitioner subsequently
moving out on his own accord.15
Government to cover up the fact that Petitioner has been
Tortured, in violation of The Geneva Convention against
Torture Articles 1, 2, 4, 5, 6, 7, 10, 11, 12, 13, 14, and 16, as well
as the fifth, eighth, thirteenth and fourteenth amendment of
the Constitution of The United States; as well as Article 1
Section 1, Article 1 Section 6-A, Article 1 Section 9, and Article
1 Section 19 of The Maine State Constitution; brought to the
attention of the Maine State Government on November 01 2016
and August 02 2017 and The Maine Supreme Court in his
Appellant’s Brief KEN-18-458, Argument Seven, as well as the
Appendix to that Brief in “White Paper with Confidential
Disclosures, 11/01/16” and “White Paper with Confidential
Disclosures, 08/02/17” as well as his “Motion to Reconsider,
Argument Six” and “Motions for Findings of Facts and
Conclusions of Law”, all of which The Maine Supreme Court
ignored in its Decision and its Response to Petitioner’s Motions.
All cited documents included in Appendix, Pages 41 — 146.
15 Petitioner’s Arguments 1, 3, 4, 5. Petitioner asserts that the
State and Federal Government have exercised total control over
the Petitioner’s dwelling(s) and possessions and constantly
move him around in order to deny him or his situation to
become known to members of the general public, or when their
exposure becomes high and the general public becomes aware of
their presence or when the situation becomes untenable for the
Government to adequately secure to their satisfaction, all in
18

This current situation is in stark contrast to
Petitioner’s life in Connecticut, where he occupied
the same 700-square foot apartment at Pinney Hill
Apartments, Carrolton Properties, Ellington
Connecticut from the years 2002 - 2014 with never a
single complaint against him by anyone, and where
he was on friendly or cordial relations with all those
he knew at that apartment complex.
Petitioner has contacted The Bangor Police
Department, The Knox County Sheriffs Department,
and The Kennebec County Sheriffs Department and
all have refused to assist the Petitioner in any way
whatsoever despite numerous affidavits submitted to
them under penalty of perjury describing the crimes
he has been victim to, one including assault with a
deadly weapon (a handgun), and those departments
have thus denied the Petitioner equal access to and
protection under the Law which is a violation of the
Petitioner’s Constitutional Rights.16
violation of the Petitioner’s United States Constitutional
Rights, specifically the First Amendment, Fourth Amendment,
Fifth Amendment, Eighth Amendment, Thirteenth
Amendment, and Fourteenth Amendment to The United States
Constitution; Article 1 Section 1, Article 1 Section 5, Article 1
Section 6-A, and Article 1 Section 9 of The Maine State
Constitution, as brought to the attention of the Maine State
Government and Maine Supreme Court in his Appellant’s Brief
KEN-18-458, Argument Seven, as well as the Appendix to that
Brief in “White Paper with Confidential Disclosures, 11/01/16”
and “White Paper with Confidential Disclosures, 08/02/17” as
well as his “Motion to Reconsider, Argument Six” and “Motions
for Findings of Facts and Conclusions of Law”, all of which The
Maine Supreme Court ignored in its Decision and its Response
to Petitioner’s Motions. All cited documents included in
Appendix, Pages 51-146.
16 Petitioner’s Arguments 1, 3, 4, 5. Petitioner asserts that the
State and Federal Government have colluded in denying him
19

s>

As a result, Petitioner continues to be victim
to crime such as breaking and entering, burglary,
theft, vandalism and destruction of property on a
regular basis and these crimes go unanswered for.
Petitioner is aware that the FBI or agents acting on
their behalf are the ones perpetrating these crimes,
in constant and ceaseless violations of the
Petitioner’s Constitutional Rights.17
This situation has recently evolved as
petitioner has, contrary to all his former actions,
chosen to challenge eviction at his current residence
and currently thus has two eviction cases on appeal
to the Maine Superior Court for just and compelling
cause; AP-18-69 and AP-19-20, having now become
AP-19-11 and AP-19-12, respectively, after all
Kennebec County Justices were recused from those
cases, reasons unknown despite repeated inquiry,
and those cases transferred to Penobscot County.
The Lead Attorney for Petitioner’s Landlord is
George Jabar, who is also the Kennebec County
equal access to and protection under the law, because The
Federal Government is the perpetrator, and have therefore put
him at their mercy, in a position akin to their slave, a violation
of the Fourth, Thirteenth, and Fourteenth Amendment United
States Constitution; Article 1 Section 1, Article 1 and Section 6A of The Maine State Constitution, as brought to the attention
of as brought to the attention of the Maine State Government
and Maine Supreme Court in his Appellant’s Brief KEN-18-458,
Argument Seven, as well as the Appendix to that Brief in
“White Paper with Confidential Disclosures, 11/01/16” and
“White Paper with Confidential Disclosures, 08/02/17” as well
as his “Motion to Reconsider, Argument Six” and “Motions for
Findings of Facts and Conclusions of Law”, all of which The
Maine Supreme Court ignored in its Decision and its Response
to Petitioner’s Motions. All cited documents included in
Appendix, Pages 51 - 146.
17 Same Argument as footnote (16) above.
20

Commissioner responsible for oversight of the
Kennebec County Sheriff s Office and is the son of
Maine Supreme Court Justice Joseph Jabar, who
was on the panel that denied Plourde’s PEN-18-458
appeal that thus led to the initiation of this
Petition.18
Suspiciously, AP-19-11 has yet to be scheduled
for Oral Argument despite the fact that The Maine
Rules of Civil Procedure Rule 76G(c) state that Oral
Argumentation should have been held prior to March
06 2019, over six months ago.19
18 Petitioner’s Argument 1, 3, 4, 5, 7. George Jabar’s Law firm,
Jabar, Laliberty, and Dubord LLC, have perhaps
underestimated the Petitioner and have embarrassed
themselves in the process, particularly George Jabar as he is
the son of Maine Supreme Court Justice Joseph Jabar. Not
only were his Eviction Attempts unsuccessful, they were
blatantly illegal, frivolous, and harassing, as well as
embarrassing to certain members of the Maine Judiciary. One
need only examine The Dockets WATDC-SA-18-383 and
WATDC-SA-18-377 and their associated appeals, AP-18-69
(now AP-19-11) and AP-19-20 (now AP-19-12) to see the truth of
this statement. Thus the Petitioner Finds a Major Conflict of
Interest in allowing Joseph Jabar, father of George Jabar, onto
the Panel that decided PEN-18-458 and precipitated this
Petition. Petitioner asserts that putting Justice Joseph Jabar
on the Panel violates the following rules of The Maine Rules of
Judicial Conduct; Rules 1.1, 1.2, 1.3, 2.4, 2.9, and 2.11. The
Maine State Supreme Court was made aware of this Conflict of
Interest in Petitioner’s Motion for Reconsideration as well as
his Motion for Findings of Fact and Conclusions of Law, to
which the Maine Supreme Court replied was denied for “Want
of Jurisdiction”. Certainly this circumstance was indeed within
their Jurisdiction, and the Petitioner filed a second motion
asking for clarification of “Want of Jurisdiction”, and a third
directly addressed to Joseph Jabar himself to address this issue
specifically, to which again The Maine Supreme Court replied
was .denied for “Want of Jurisdiction” in both cases.
19 Same Argument as footnote (18) above.
21

Petitioner finds, for reasons stated above, that
there are clearly major Constitutional Problems
associated with KEN-18-458 and The Maine
Supreme Court’s handling of it was clearly improper.
The Maine Supreme Court’s refusal to address
any of the Constitutional issues raised in Argument
Seven of Petitioner’s Appellant’s Brief is appalling,
as is their answer of “Motion(s) Denied” due to “Want
of Jurisdiction” when the Petitioner confronted The
Maine Supreme Court with this Fact in his Motion(s)
for Findings of Facts and Conclusions of Law.
The petitioner prays that he himself has cast a
bright enough light so that The Honorable United
States Supreme Court can see the obvious and
continuing International and Constitutional
Injustices here and bring Justice and Law and Order
back to The State of Maine and the Petitioner’s Life.
REASONS FOR GRANTING THE WRIT
Torture is a Serious Crime, and is recognized
as such Internationally by the Geneva Convention
against Torture. The penalties for it are severe, also
recognized as such by the Geneva Convention
against Torture. Petitioner has been verifiably
Tortured during his employment at United
Technologies’ Hamilton Sundstrand during 2012 —
2013, and those injuries sustained as a result have
persisted and continue to this day and Torture
continues to be inflicted upon petitioner by The
United States Government. Petitioner has alerted
this Fact to The Office of the Director of National

Petitioner is not sure what the threshold for “disbarment” is but
has the impression George Jabar may have exceeded it.
22

Intelligence, The Federal Bureau of Investigation,
The Central Intelligence Agency, The ACLU, The
Maine State Government, The Maine Supreme
Court, Local Law Enforcement, and other Federal
and State Government Entities. None of these
entities have offered the Petitioner any assistance or
recourse whatsoever and have instead chosen to
collude with one another and “cover up” this heinous
act.
Furthermore, this case on petition is ripe with
additional United States Constitutional Abuses,
against both Petitioner and Respondent, which are
also readily verifiable. These abuses have been
committed against the Petitioner and his Family by
The Federal Bureau of Investigation, The Central
Intelligence Agency, The Maine State Government,
and Local Law Enforcement, among others. The
Petitioner has brought these abuses to the attention
of the Maine Supreme Court, who has refused to rule
on, or even comment on, these abuses. Furthermore,
when asked directly to confront these issues in a
series of Follow-up Motions for Findings of Facts and
Conclusions of Law, The Maine State Supreme Court
has refused to address these Constitutional
Violations, citing “Want of Jurisdiction”.
Thus it is clear that the Petitioner’s untenable
situation will continue to harm the Petitioner and
the Petitioner’s Family for the rest of their lives,
unless a higher power intervenes. The Petitioner
recognizes that The Honorable United States
Supreme Court is his current Court of last resort,
and therefore asserts that, unless they act, Petitioner
and his Family will be condemned to a life of both
physical and emotional pain, suffering, and misery.

23

1. There are numerous, readily verifiable
International Law Violations and
Constitutional Rights Violations that
have been completely ignored by every
Federal, State, Private, and law
enforcement Agency the Petitioner has
ever met with, and the list is exhaustive.
To simply ignore these grievous crimes is
clearly not what the Founding Fathers of
this Country had in mind when they
drafted The United States Constitution
and created The United States of
America.
As cited above, Petitioner has exhausted all
avenues for recourse available to him, even
meeting with Attorney Bill Knowles of Verrill
Dana on a referral by Attorney Philip Mohlar of
Skowhegan Maine. Petitioner is aware that his
meeting with Attorney Knowles was videotaped.
At the end of that meeting, petitioner was
informed by Attorney Knowles that Verrill Dana
was not interested in representing him.
Petitioner knows Bill Knowles is a very upperechelon member of Verrill Dana and that Verrill
Dana handles some of the most serious Federal
Cases that exist in this country, and since they
have refused to represent him, petitioner has
gained an understanding of The Government’s
disposition towards his Legal Affairs and thus
has no reason to expect their help.
As Petitioner has cited in his Statement of the
Case, the FBI is positively interfering with the
Petitioner’s attempts to hire a private attorney,
24

and in doing so are preventing him from hiring a
high-quality attorney who could make short-work
of the Petitioner’s highly-verifiable and highlyunconstitutional situation.
Clearly, to let the petitioner be Tortured and
to let his Constitutional Rights be violated on a
daily basis by the United States Government,
and to let that Torture, Constitutional Violations,
and Harassment persist to this very day, despite
the Fact that the petitioner has made his Federal
Government, State Government, and Federal and
State Law Enforcement aware of this situation is
Positively not what the Founding Fathers had in
mind when drafting the United States
Constitution and creating the United States of
America. Petitioner asserts that the founding
fathers would “roll over in their graves” if they
were aware of the Federal Government’s
treatment of the Petitioner and the Federal and
States’ Government response to the situation.
Thus the Petitioner asserts that this situation
is so egregious that it demands the attention of
The Honorable United States Supreme Court in
the spirit under which this country was founded.
2. The Petitioner and his Family have no
other recourse for the Torture he has
endured by the United States
Government.
As cited above, Petitioner has made numerous
Federal Government, State Government, and
Law Enforcement Agencies aware of the Torture
he has endured, and all have refused to even
investigate this easily-verifiable and undisputed
25

Fact as The Geneva Convention Against Torture,
to which The United States is a signed and
principal party, demands they must.
Thus the Petitioner is forced to live in an
isolated world in which neither the protection of
International Law nor protection of the Laws of
this Nation apply to him, and the guilty parties
are free to continually harass and further
Torture the Petitioner, all in violation of both his
International and Constitutional Rights.
Petitioner’s parents have also suffered greatly as
a result as they are obviously in grave fear for
their Family.
This situation is tantamount to slavery, and
the petitioner, who holds multiple degrees from
the prestigious Rensselaer Polytechnic Institute
and who once held very high-visibility and
highly-important and impressive positions within
big-name companies such as United
Technologies, has now been reduced to living at
approximately one-third of The State of Maine’s
poverty level, in indigency, and isolated from the
community, as any attempts he makes to interact
with members of the community are immediately
interceded by The FBI or agents acting on their
behalf.
The Petitioner has little hope for his own
future or the future of his family should The
Honorable United States Supreme Court fail to
address the International and Constitutional
violations of law against him and his Family that
the Maine Supreme Court has refused to.

26

3. The Situation is positively Untenable
and Uncontainable and Patently Wrong.
Initially, after being removed from his
residence (parent’s home) on June 06, 2016,
the Federal Government “went for the throat”
and attempted to exploit the Petitioner’s PTSD
by constantly harassing, unnerving, and
keeping the Petitioner in fear for his life, thus
keeping him in a constant state of “Survival”
in which petitioner was paralyzed with fright.
Such treatment is evident in the Petitioner’s
submission to the ACLU, in which he states
multiple times that he is in fear for his life, as
well as the November 01 2016 “White Paper”
submitted to his State Government.
Petitioner spent the summer of 2016 “holed
up” at the Farmington Motel in Farmington
Maine, which is in plain sight on a busy road
connecting multiple communities.
Although the Government flooded that
otherwise empty roadside motel with guests, it
was still quite apparent to the Community of
Farmington that there was something
seriously amiss transpiring at the Farmington
Motel, and the Petitioner’s Vehicle there was
an ever-present constant despite the changing
multitude of vehicles at what has been, is to
this day, and should have been an otherwise
empty Motel during the summer of 2016.
This event was more or less repeated when
the Petitioner was forced out of the
Farmington Motel by its owner and took up
residence at the Keyes Motel, 125 West Front
Street in Skowhegan, which is situated less
27

than a tenth of a mile from Skowhegan
Highschool and about a mile from the Maine
State Police Troop C Barracks.
Once again, the Federal Government
exploited the petitioner’s PTSD and “went for
the throat” in the manner described above.
Finally, in January of 2017, petitioner was
forced out of his Skowhegan Apartment by
“Jeff Keyes”, who was not the person he had
entered into oral contract with for that
premises, that person being “Dana Keyes”.
Upon making “Jeff Keyes” aware of this fact
Petitioner returned to his Skowhegan
apartment and found a notice on his door that
the building had been “condemned” by the
town of Skowhegan, which thus forced the
Petitioner out of his dwelling procedurally.
The petitioner has recently driven past this
apartment building and has found it to be
quite intact and functional.
This event was yet again more or less
repeated when the Petitioner rented an
apartment from “Maria Mangino” of Eagle
Crest Apartments during February of 2017.
Although there were only two to three vehicles
in the spacious parking lot afforded for two
apartment buildings when the petitioner
moved in, the parking lot was soon very
suspiciously filled with vehicles to the point
where people were parking on the lawn, and
when petitioner asked to be moved to a
different apartment during March of 2017, not
even a month later, he was informed by
“Maria Mangino” that all apartments had been
rented.
28

Once again, the Federal Government
exploited the petitioner’s PTSD and “went for
the throat” in the manner described above.
The Honorable United States Supreme
Court may be interested to know that Maine
State Prosecutor Stephen Burlock was a
frequent “guest” (he did not reside their on a
regular basis although he made his presence
known conspicuously) at the apartment
directly opposite that of the petitioner, and
Eagle Crest Apartments is located
approximately two miles from the Bangor
Maine FBI satellite office.
Clearly there was much unusual activity
taking place at Eagle Crest Apartments, and
the citizens of Bangor who lived in and around
there could not help but to have taken notice.
After Petitioner’s 3-month lease expired he
was technically a tenant at will and was given
a 30-day notice to vacate the premises.
Although petitioner had multiple affirmative
defenses available to him he chose to leave
Eagle Crest Apartments willingly, before 30days had expired, so as to avoid unnecessary
confrontation.
Petitioner then moved into the Residence of
“Steven Belyea” of 18A Ocean Avenue, Owl’s
Head, Maine. Immediately upon moving in
the Federal Government once again “Went for
the Throat” by exploiting the petitioner’s
PTSD in the manner described above, and this
time petitioner changed his tactic and
contacted the Knox County Sheriff s office to
report the numerous breakings and entering’s

29

and thefts of his property that were occurring
on a daily basis.
Petitioner filed three Police Reports, K1711852, K17-11936, and K17-13329, although
after a meeting with Knox County Sheriff
Donna Dennison in which she tacitly admitted
the FBI was involved, it was made painfully
clear to the petitioner by “Deputy Jack” that
the Knox County Sheriffs department would
not assist the petitioner in any way.
Petitioner moved out of that apartment at
the end of his 6-month lease so as to avoid
another eviction attempt, which was bound to
occur given his less-than-cordial relationship
with “Steven Belyea”.
Petitioner finally moved into 7 Hussey Road
(although fraudulently reported to him by
landlord “Stephen Bellavia” as 11 Hussey
road) Apartment 3, his current residence.
Again the Federal Government “Went for the
Throat” and tried to exploit the petitioner’s
PTSD for their own gain by constant breaking
and entering (including while petitioner was
asleep inside), theft and destruction of his
property, as well as all tenants in the building
confronting him in a hostile nature, sometimes
rising to the crime of assault, as detailed in
the petitioner’s Maine Superior Court appeals
AP-19-11 and AP-19-12.
Petitioner filed notarized Police Reports
under penalty of perjury with the Kennebec
County Sheriff s Office that included a
mountain of verifiable evidence implicating
“Stephen Bellavia” and his fellow tenants in
numerous crimes against the petitioner. As
30

discussed in The Statement of The Case, AP19-11 and AP-19-12 are well-past their “due
date” for adjudication, over 6 months so, for
reasons that are speculative but highly reasonable and deducible.
Petitioner’s apartment sits on the second
story and has a patio window and balcony that
is highly visible to downtown Albion and
Route 9, which is a high-traffic corridor
(relatively speaking) between the small
outlying communities and Waterville, Maine.
Petitioner raised the International Red
Cross Flag on his balcony and hung
International Red Cross Curtains in all his
windows in early July of 2018 which
precipitated “Stephen Bellavia’s” attempts to
evict him using Kennebec County
Commissioner George Jabar, who is the duly
elected official who has oversight of the
Kennebec County Sheriffs Department, the
same Department which has refused to follow
up on any of the petitioner’s nine notarized
and punishable per perjury police reports
regarding Bellavia and his tenants (the
connection here is obvious), and is the son of
Maine Supreme Court Justice Joseph Jabar.
Ask most residents who “Glen Plourde” is in
the towns of Ellington Connecticut, Newburgh
Maine, Farmington Maine, Skowhegan Maine,
Bangor Maine, Albion Maine, Waterville
Maine, Augusta Maine, Portland Maine, The
Maine State Police, The Bangor Police
Department, The Knox County Sheriffs
Department, The Kennebec County Police
Department, or the Old Orchard Beach Police
31

. .71

'>{

Department (where the petitioner has
attempted to “unwind” during the summer of
2019) and they are bound to tell you that he is
highly-active in the Judicial System and under
constant surveillance by the FBI. They either
know him to have been tortured or to be a
“person of extreme interest” to the FBI in
order to necessitate the FBI’s constant and not
very subtle presence.
Thus it is clear that this situation has
reached Critical Mass, and has for some time.
Moving the petitioner around again, and for
the rest of his life, will only inform more of the
General Public of the Classified Nature of his
circumstances. The FBI is leaking like a
sinking ship. It is obvious to thousands of
citizens that Glen Plourde of Newburgh,
Maine (his hometown) is under constant
surveillance by the FBI.
The current situation is objectively
ridiculous and out of control and demands
appropriate correction.
Therefore the petitioner rightfully asserts
that this unlawful situation is no longer
tenable, is out of the Federal Government’s
control, and needs to be brought to a timely
conclusion, which the Federal and Maine State
Governments, Legal System and Law
Enforcement have refused to do, before more
Classified Information is leaked to the General
Public and the Petitioner is further exploited
for the purposes of continual and never-ending
“Federal and State Law Enforcement
cooperative exercises”, “training exercises”,
“games theory”, or “war games”.
32

4. The Fallout could be Tremendous.
If these International and Constitutional
Violations of Law continue to go unanswered
for, the petitioner will be put in a position of
no recourse and his situation will become
desperate.
In such a situation, the Petitioner sees only
the following three contingencies.
The first would be to live a life where the
petitioner and his family accept the fact that
they have no International or Constitutional
Rights, a life in which The Federal and State
Government and the Law Enforcement
agencies paid with their own tax dollars to
protect them will not protect them, and
therefore to live a life akin to slavery, at the
mercy of the whims of the Federal
Government who act above the law. This is
not an acceptable situation in the eyes of the
petitioner, nor should it be in the estimation of
The Honorable United States Superior Court.
The second would be to live a life where the
petitioner devotes his entire life to engaging in
direct Legal Action at both the State and
Federal Levels against those who have
violated the law and have wronged him in
doing so. The list of potential defendants is
not short by any means, and includes highvisibility high-profile persons and institutions
such as Federal, State and Local Politicians,
Government employees, Federal and State
Government Agencies and Institutions,
Municipal Agencies and Institutions, as well
as private business and individuals. The
33

Federal Bureau of Investigation, with which
the Petitioner knows The Honorable United
States Supreme Court to have a close working
relationship with, can attest to this fact.
This course of action is potentially, and in
all probability as well as the Petitioner’s own
estimation, lucrative; although it does require
devotion of the Petitioner’s entire life to a
single cause. Petitioner has made a rough list
of culpable defendants, as alluded to above,
and estimates that it could take over 10 years
to litigate all cases, assuming no additional
grievances are levied against him in the
meantime - which is unlikely, and assuming a
rough-estimation of a heavy case-load per
year, relative ease or difficulty of the cases
involved, and the statutes of limitations
involved.
This course of action would be quite the
undertaking, and would deprive the petitioner
of much time he might otherwise enjoy
participating in hobbies or activities he is
interested in pursuing. However, petitioner is
not pleased with what he has been subjected
to nor is he pleased with the fact that the
Federal Government refuses to be held
accountable for their crimes. Petitioner also
has concerns for his family, and engaging in
such direct course of public action would
certainly get the plight of the petitioner and
his family into the Public Domain and Public
Record far faster than even the FBI can with
their constant leaking from town to town as
discussed above.

34

The Final course of action available to the
Petitioner is to leave the country through
Political Asylum, which the FBI has assured
him, through Top Secret means and methods,
that he is sure to receive; and in the
Petitioner’s own calculation, he concurs.
The petitioner’s choice of Asylum Country,
which he understands he has some control
over due to United Nations Mandates, is not
likely to be one particularly friendly with the
United States, as the Petitioner has had quite
enough of the Torture, Isolation, Harassment
and Meddling in his Affairs that has been the
hallmark of the FBI’s involvement in his life
for over the past 15 years or so and will
therefore not select a country which is likely to
collaborate on the Medical Treatment
necessary due to Torture the petitioner has
been subject to and Critical Injury(s)
sustained, nor report the petitioner’s condition
or whereabouts to The United States.
The petitioner will not necessarily go
quietly either. The petitioner finds that the
propagation of a lie convenient to the United
States Government such as “He moved to
Alaska and we rarely hear much from him at
all” to be completely unacceptable. The
petitioner will ensure, through various means
and methods available to him, that it is
publicly disclosed that he has sought and
received Political Asylum due to the United
States Federal Government’s Torture of him
and their failure to be held accountable for it.
It will not end there. The Petitioner will
seek Legal Counsel in his Asylum Country in
35

which to aid the petitioner in Legal Action
against The United States through various
International Courts of Law, which should not
be difficult due to his Asylum Country’s
probable disposition towards the United States
as described above.
In this event, the United States will be
called to account for their crimes against the
petitioner on the International Stage.
Petitioner has no qualms or misgivings
against this course of action should he be
forced into Asylum and will pursue it with zeal
and fervor.
Petitioner finds this course of action to
be unfortunate but perhaps necessary as living
under the constant Torture, Isolation,
Harassment and Interference of the Federal
Bureau of Investigation for over the last 15
years, particularly the last 8, has been
demanding and intolerable and certainly not a
life worth living.
CONCLUSION
The petition for a writ of certiorari
should be granted.

Respectfully submitted,
Glen Plourde
7 Hussey Road Apartment 3
Albion, Maine 04910

36

